Department of Homeland Security
   Ofﬁce of Inspector General

         Annual Report to Congress on States' and 

      Urban Areas' Management of Homeland Security 

             Grant Programs Fiscal Year 2010 





OIG-11-20                                   December 2010
                                                              Office ofInspector General

                                                              U.S. Department of Homeland Secnrity
                                                              Washington, DC 20528




                                          Preface

The Department of Homeland Security (DHS) Office ofInspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the annual requirement to report to Congress on the results of audits
of individual states' management of State Homeland Security Program and Urban Areas
Security Initiatives grants. It is a summary of the findings from four individual audit
reports, including recommendations to the Federal Emergency Management Agency for
states to take corrective measures and actions to improve their grant management
programs.

We trust this report will result in more effective, efficient, and economical operations.
We express our appreciation to all of those who contributed to the preparation of this
report.                              ~~

                                      Anne L. Richards
                                      Assistant Inspector General for Audits
Table of Contents/Abbreviations

Executive Summary ........................................................................................................... 1 


Background ........................................................................................................................ 2 


Results of Audits ................................................................................................................ 3 


     States Need to Improve Their Strategic Planning Processes ....................................... 5 

         The State Homeland Security Strategy Was Outdated .......................................... 5 

         States Lacked Fully Measurable and Achievable Statewide Goals and 

            Objectives .......................................................................................................... 5 

         States Processes to Collect or Analyze Performance Data Required Updating 

            and Refinement .................................................................................................. 6 


     States Need to Improve Their Oversight of Grant Activities ...................................... 8 

         FY 2005 Financial Status Reports Were Inaccurate .............................................. 8 

         Quarterly Financial Status Reports Were Not Submitted Timely ......................... 8 

         States’ Oversight of Subgrantees Needs Improvement ......................................... 9 

         Reimbursements Not Supported by Invoices ....................................................... 10 

         State Withheld Portion of Local Units’ Funding Without Required 

            Memorandums of Understanding .................................................................... 10 

         Grants Funds Were Not Obligated Timely .......................................................... 11 

         Detailed Equipment List Was Not Maintained .................................................... 11 


     Best Practices ............................................................................................................. 11 


Appendices
     Appendix A:           Purpose, Scope, and Methodology ..................................................... 13 

     Appendix B:           Audit Reports Included in this Report ............................................... 14 

     Appendix C:           Scope of State Grant Program Management Audits .......................... 15 

     Appendix D:           Report Distribution ............................................................................ 16 


Abbreviations
     DHS                Department of Homeland Security 

     FEMA               Federal Emergency Management Agency 

     FY                 Fiscal Year          

     OIG                Office of Inspector General 

OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                  Public Law 110-53, Implementing Recommendations of the 9/11
                  Commission Act of 2007, requires the Department of Homeland
                  Security, Office of Inspector General, to audit individual states’
                  management of State Homeland Security Program and Urban
                  Areas Security Initiative grants, and annually submit to Congress a
                  report summarizing the results of those audits. This report
                  responds to the annual reporting requirement and summarizes
                  audits of four states completed in Fiscal Year 2010.

                  The objectives of the state audits were to determine whether each
                  state: (1) effectively and efficiently implemented the grant
                  programs; (2) achieved program goals; and (3) spent funds in
                  accordance with grant requirements. The audits included a review
                  of approximately $218 million in State Homeland Security
                  Program and Urban Areas Security Initiative grants awarded to the
                  four states during Fiscal Years 2005 through 2007.

                  Generally, the states did an efficient and effective job of
                  administering the grant management program requirements,
                  distributing grant funds, and ensuring that all of the available funds
                  were used. The states used reasonable methodologies to assess
                  threats, vulnerabilities, capabilities, and needs, and allocated funds
                  accordingly. The states complied with cash management and
                  status reporting requirements, and procurement methodologies
                  conformed to the states’ strategies. The states generally spent
                  funds in accordance with grant requirements and State-established
                  priorities. We also identified an effective tool and practice used by
                  one of the states.

                  We identified two areas for improvement: strategic planning and
                  oversight of grant activities. We also identified $46,000 in
                  questioned costs. We made 19 recommendations addressing these
                  areas. The Federal Emergency Management Agency concurred
                  with all recommendations, and corrective actions are underway to
                  implement them.




                 Annual Report to Congress of States’ and Urban Areas’ 

            Management of Homeland Security Grant Programs Fiscal Year 2010
 


                                         Page 1 

Background
               Public Law 110-53, Implementing Recommendations of the 9/11
               Commission Act of 2007, requires the Department of Homeland
               Security (DHS), Office of the Inspector General (OIG), to annually
               submit to Congress a report summarizing completed audits of State
               Homeland Security Program grants and Urban Areas Security
               Initiatives grants awarded to states, territories, and the District of
               Columbia. This report summarizes our Fiscal Year (FY) 2010
               audits of the management of Homeland Security Grants awarded to
               four states as indicated in Table 1. Internet links to the reports are
               included in Appendix B.

                                                 Table 1

                                  Audits Included In This Report
                                                   Homeland       Audited       Audited
                                     Fiscal         Security       SHSP          UASI
                     State           Years           Grant         Grant         Grant
                                    Reviewed        Awards        Awards        Awards
                                                     (000s)        (000s)        (000s)
                                                                                No UASI
                West Virginia      2005 - 2007       $38,295       $23,268
                                                                                 Grants
                                                                                No UASI
                South Carolina     2005 - 2007       $43,994       $25,125
                                                                                 Grants
                Missouri           2005 - 2007      $121,055       $45,759      $51,304

                Maryland           2005 - 2007       $99,211       $39,786      $33,018

                Subtotal                                          $133,938      $84,322

                Total                               $302,555               $218,260


               Homeland Security Grant Program

               The Homeland Security Grant Program provides federal funding to
               help states and local agencies enhance their capabilities to prevent,
               deter, respond to, and recover from threats or acts of terrorism.
               The program encompasses several interrelated federal grant
               programs that together fund a range of preparedness activities,
               including planning, organization, equipment purchase, training,
               and exercises, as well as management and administrative costs.
               Depending on the fiscal year, the program included some or all of
               the following: the State Homeland Security Program, the Urban
               Areas Security Initiative, the Law Enforcement Terrorism
               Prevention Program, the Citizen Corps Program, the Metropolitan
              Annual Report to Congress of States’ and Urban Areas’
         Management of Homeland Security Grant Programs Fiscal Year 2010

                                     Page 2
                  Medical Response System Program, and the Emergency
                  Management Performance Grant Program. The following are
                  descriptions of the two programs addressed in this report:

                  �	 State Homeland Security Program provides financial
                     assistance directly to each of the states and territories to
                     prevent, respond to, and recover from all-hazards. The
                     program supports the implementation of the State Homeland
                     Security Strategy to address identified planning, equipment,
                     training, and exercise needs.

                  �	 Urban Areas Security Initiative provides financial assistance
                     to address the unique planning, equipment, training, and
                     exercise needs of high-risk urban areas, and to assist them in
                     building an enhanced and sustainable capacity to prevent,
                     respond to, and recover from threats or acts of terrorism.
                     Allowable costs for the urban areas are consistent with the
                     State Homeland Security Program, and funding is expended
                     based on the Urban Area Homeland Security Strategies.

                  The objectives of the individual state audits were to determine
                  whether the states implemented the grant programs effectively and
                  efficiently, achieved their program goals, and spent funds in
                  accordance with grant requirements. Nine researchable questions
                  established the framework for the audits and were related to the
                  State’s planning, management, and evaluations of grant activities.
                  Appendices A and C provide additional details on the purpose,
                  scope, and methodology of this report and the state audits,
                  including the nine researchable questions.

Results of Audit
          Generally, our audits showed that the states did an efficient and effective
          job of managing grant programs requirements, distributing grant funds,
          and ensuring that all of the available funds were used. The states used
          reasonable methodologies to assess threats, vulnerabilities, capabilities,
          and needs. The states complied with cash management and status
          reporting requirements, and procurement methodologies were in
          conformance with the states’ strategies. The states generally spent the
          grant funds in accordance with grant requirements and State-established
          priorities, and appropriately allocated funding based on threats,
          vulnerabilities, capabilities, and priorities.

          However, the audit reports identified two areas for improvement: strategic
          planning and oversight of grant activities. We made 19 recommendations

                 Annual Report to Congress of States’ and Urban Areas’ 

            Management of Homeland Security Grant Programs Fiscal Year 2010
 


                                         Page 3 

in these areas to the Federal Emergency Management Agency (FEMA)
that, if implemented, should strengthen program management,
performance, and oversight. FEMA concurred with all of the
recommendations, categorized in Table 2 below, and is taking corrective
actions to implement them. The recommendations will remain open
pending completion of corrective actions by FEMA.

                                      Table 2

                      Status of Audit Recommendations

                                                     Agency
                                            No.                         Status:
     Areas for Improvement                         Concurrence
                                          Issued                      Open Closed
                                                   Yes     No

         I. States Need to Improve Their Strategic Planning Processes

Homeland Security Strategy Was
                                             1      1        0         1
Outdated
Strategy Lacked Measurable and
                                             3      3        0         2      1
Achievable Goals and Objectives
Processes to Collect or Analyze
Performance Data Required                    3      3        0         3
Updating and Refinement

  II. States Need to Improve Their Oversight of Grant Activities

FY 2005 Financial Status Reports
                                             2      2        0         2
Were Inaccurate
Quarterly Financial Status Reports
                                             2      2        0                2
Were Not Submitted Timely
State’s Oversight of Subgrantees
                                             4      4        0         3      1
Needed Improvement
Reimbursements Not Supported by
                                             1      1        0         1
Invoices
Withheld Portion of Local Units’
Funding Without Required                     1      1        0                1
Memorandums of Understanding
Grant Funds Were Not Obligated
                                             1      1        0         1
Timely
Detailed Equipment List Was Not
                                             1      1        0                1
Maintained

Total                                       19     19        0        13      6




      Annual Report to Congress of States’ and Urban Areas’ 

 Management of Homeland Security Grant Programs Fiscal Year 2010
 


                              Page 4
 

States Need to Improve Their Strategic Planning Processes
     Our audit reports identified system weaknesses in the states’ strategic
     planning processes. The strategies were outdated, lacked fully
     measureable goals and objectives, or required updating to processes to
     collect and analyze performance data.

             The State Homeland Security Strategy Was Outdated

             The State of Maryland had not revised its State Homeland Security
             Strategy even though the State’s priorities have changed. The
             State’s Homeland Security Strategy was developed in 2003 and
             revised in 2007, and included 17 broad-based goals, 53 objectives,
             and multiple implementation steps with target dates for achieving
             the objectives. However, the State began to transition in 2006
             from the FEMA-approved strategy to 12 Core Priorities established
             by the newly elected Governor. Not all of the Governor’s core
             priorities were reflected in the current FEMA-approved strategy,
             thereby requiring an update. While the Governor’s 12 Core
             Priorities have become the State’s strategic focus to address
             homeland security, the 12 priorities had not been developed into a
             formal strategic plan. Subsequent to the audit period, the State
             submitted, and FEMA approved, an updated strategy.

             States Lacked Fully Measurable and Achievable Statewide
             Goals and Objectives

             The Homeland Security Strategies for the states of Maryland,
             Missouri, and South Carolina lacked fully measurable and
             achievable statewide goals and objectives. Consequently, the
             States’ strategic goals did not provide a basis for measuring
             progress during FYs 2005 through 2007.

             For the State of Maryland, neither the FEMA-approved State
             Homeland Security Strategy, nor the Governor’s 12 Core Priorities
             included specific, measurable, results-oriented, and time-limited
             objectives.

             Similar deficiencies were found in the States of Missouri and
             South Carolina statewide goals and objectives in their Homeland
             Security Strategies. In addition to not being measurable, some
             objectives may not be achievable or realistic because, as written,
             they were contingent on the availability of federal funding and
             guidance.


            Annual Report to Congress of States’ and Urban Areas’
       Management of Homeland Security Grant Programs Fiscal Year 2010

                                   Page 5
      Without measurable goals and objectives and a mechanism to
      collect objective, results-oriented data, the States did not have a
      basis for evaluating the effectiveness of grant fund expenditures on
      the response capabilities of first responders. Also, the States could
      not consider progress already made towards goals and objectives
      when making funding and management decisions about future
      grant expenditures.

      States Processes to Collect or Analyze Performance Data
      Required Updating and Refinement

      The States of South Carolina, Missouri, Maryland, and West
      Virginia did not have mechanisms to collect performance data, nor
      any procedures to analyze such data and maintain documentation
      to support the evaluation. Without the mechanism and proper
      supporting documentation, there is no assurance the information is
      accurate.

      In preparing the South Carolina annual threat and vulnerability
      assessments, the State did not document and retain supporting data
      such as emergency call logs for fire trucks and ambulances as
      required by FEMA. While the State did form Counterterrorism
      Coordinating Councils to develop, define, and review the State
      strategy and goals, it did not create a mechanism to collect data,
      nor any procedures to analyze such data and maintain
      documentation to support the evaluation. The lack of supporting
      documentation maintained by the State prevented individuals not
      present at the time the assessment is performed, such as auditors
      and FEMA, as well as the State Administrative Agency, from
      validating the assessments and ensuring consistency in the
      assessment information from year to year. Without
      documentation, the State cannot be assured of the accuracy of the
      assessments and therefore, cannot determine whether progress has
      been made towards preventing, responding, and recovering from
      acts of terrorism.

      The State of Maryland did not have an adequate process to conduct
      a review and update of its Homeland Security strategy’s goals and
      objectives, or to ensure that local input is incorporated into the
      strategy. The Maryland State Administrative Agency conducted
      annual regional workshops as a part of the needs assessment phase
      of the strategic planning process. However, the needs assessment
      phase culminated in each jurisdiction’s “wish list” for Homeland
      Security projects without regard to budget constraints or regional
      and State of Maryland needs. The Maryland State Administrative

     Annual Report to Congress of States’ and Urban Areas’
Management of Homeland Security Grant Programs Fiscal Year 2010

                            Page 6
      Agency monitored subgrantees’ homeland security activities in
      support of the State’s Strategy; however, data related to progress
      made for ongoing projects or completed projects was not collected
      or documented. Without a process to collect and analyze
      performance data, the State Administrative Agency was not able to
      provide adequate documentation demonstrating the progress that
      has been made toward achieving the State of Maryland’s homeland
      security goals.

      The State of West Virginia did not perform an analysis of
      capabilities and performance with respect to equipment purchased
      and training obtained. Specifically, there was no evidence that
      monthly subgrantee reports or After Action Reports were reviewed
      and analyzed to ensure that the goals and objectives of the grant
      were being achieved or were still in line with the real threats and
      vulnerabilities of the State. In addition, the State of West Virginia
      did not have written policies and procedures requiring analysis of
      capabilities and performance, and the documentation of such, in
      order to determine improvements in performance and progress
      towards achieving program goals. As a result, there was no
      assurance that the equipment purchased and the training conducted
      was in accordance with the specific goals and objectives of the
      State Strategy.

      The State of West Virginia was unable to provide documentation
      to support the identification of primary threats and vulnerabilities,
      and the evidence used to measure the risk of threats and
      vulnerabilities. While the State Administrative Agency did use
      committees and subcommittees to evaluate threats and
      vulnerabilities, it did not create and maintain documentation to
      support the evaluations. This occurred because the State did not
      have written policies and procedures in place to require
      documentation of the primary threats and vulnerabilities identified.
      Lack of written policies and procedures on documenting the
      identification of primary threats and vulnerabilities and the
      corresponding risk assessment prevented the State of West
      Virginia from compiling necessary supporting documentation,
      reducing assurance that the information is accurate. Without
      accurate risk assessments, the State may be hindered in evaluating
      progress in mitigating these risks.




     Annual Report to Congress of States’ and Urban Areas’ 

Management of Homeland Security Grant Programs Fiscal Year 2010
 


                             Page 7 

States Need to Improve Their Oversight of Grant Activities
     Our audits found weakness in the States’ oversight in grant activities. The
     weaknesses included inaccurate financial status reports, untimely quarterly
     financial reports, deficiencies in monitoring subgrantee activities,
     unsupported reimbursement request, improper withholding of subgrantee
     funds, untimely obligation of funds, and problems with equipment
     inventories.

             FY 2005 Financial Status Reports Were Inaccurate

             The State of Maryland’s FY 2005 Grant Financial Status Report
             was inaccurate because it did not maintain adequate financial
             management controls for information on federal and recipient
             outlays in the Homeland Security Grant program. In its FY 2005
             financial status reports, the State erroneously included the FY 2006
             cost-share match with the FY 2005 cost-share match, resulting in a
             $1.0 million deficit in its cost-share. This occurred because the
             responsibility for program administration and fiscal management
             over the Homeland Security Grants Program was transferred from
             one State agency to another, eliminating adequate segregation of
             duties to ensure accurate accounting and reporting of the financial
             activities, drawdowns were not independently reconciled,
             reviewed, and properly approved prior to being executed.
             Independent reconciliation would likely have identified the
             erroneous cost-share match.

             Quarterly Financial Status Reports Were Not Submitted
             Timely

             The States of Maryland, South Carolina, and West Virginia did not
             submit timely Financial Status Reports to FEMA. The state-
             prepared quarterly Financial Status Reports are designed to provide
             FEMA with financial information about the grant program
             expenditures that it can use to monitor grant implementation. The
             report is due within 30 days of the end of each calendar quarter (a
             change from 45 days in FY 2005).

             During FY 2005, the South Carolina Law Enforcement Division
             submitted 16 of 30 Financial Status Reports between 1 to 17 days
             late because it miscalculated the report due dates. Additionally,
             the Division did not revise its procedures to effectively and
             consistently meet the new 30-day requirement for FYs 2006 and
             2007 grants.


            Annual Report to Congress of States’ and Urban Areas’
       Management of Homeland Security Grant Programs Fiscal Year 2010

                                   Page 8
      The State of West Virginia State submitted 9 of 33 Financial Status
      Reports late. For FY 2005, a change in the agency designated as
      the State Administrative Agency caused delays in submission of
      the Financial Status Reports. State Administrative Agency
      officials stated that reports were delayed for FYs 2006 and 2007
      because the State did not become aware of the change in the due
      date in a timely manner. The State had subsequently taken action
      to adequately address the issue.

      The Maryland Emergency Management Agency did not submit six
      Financial Status Reports for Fiscal Years 2005 through 2007
      within the required filing period. As a result, the Maryland
      Emergency Management Agency was at risk of future grant funds
      and drawdowns being withheld, which could affect its emergency
      preparedness and incidence response readiness.

      Delays in the submission of Financial Status Reports may hamper
      FEMA’s ability to effectively and efficiently monitor program
      expenditures and may prevent the State from drawing down funds
      in a timely manner, and ultimately affects the functioning of the
      program.

      States’ Oversight of Subgrantees Needs Improvement

      Necessary improvements in subgrantee monitoring were identified
      during the audits of the states of Maryland and Missouri. The
      states did not consistently enforce subgrantee financial and
      performance reporting requirements, did not document the status
      of subgrantees’ performance during site visits, and were unable to
      assure compliance with federal regulations with respect to its
      responsibility to provide day-to-day management oversight.

      The State of Maryland Administrative Agency did not enforce
      requirements for subgrantees to submit quarterly financial and
      performance reports, nor document subgrantee performance and
      progress towards program goals. The State Administrative Agency
      implemented its monitoring program in 2006; however, the State
      did not enforce the subgrantee requirements established under its
      monitoring program. As a result, the State did not ensure that its
      subgrantees program goals were being achieved and that funds
      were being expended as intended for FYs 2005 through 2007.

      During FYs 2005 through 2007, the State of Missouri did not
      perform on-site subgrantee monitoring of the State Homeland
      Security Program and Urban Areas Security Initiative grants to

     Annual Report to Congress of States’ and Urban Areas’
Management of Homeland Security Grant Programs Fiscal Year 2010

                            Page 9
      ensure subgrantees’ performance was in accordance with program
      goals, and that subgrantees were administering federal awards in
      compliance with federal and state requirements. The State’s lack
      of effective on-site monitoring of Homeland Security Grant
      Programs was previously reported in the State of Missouri Single
      Audits in 2005, 2006, and 2007.

      Without effective subgrantee monitoring, the states cannot ensure
      that program goals are being met and assets purchased are used as
      intended. Also the states cannot ensure subgrantee compliance
      with grant requirements.

      Reimbursements Not Supported by Invoices

      The State of Maryland did not have the required documentation to
      support over $46,000 in expenditures reimbursed under the State of
      Maryland’s Homeland Security Program. Purchase orders were
      the only support provided in some instances, instead of the
      required third party invoices. For larger reimbursement requests
      with a significant number of expenditures, all documentation had
      not been provided at the time the request was processed for
      payment. Without proper supporting documentation, there is an
      increased risk of unauthorized or unsupported expenditures being
      incurred or reimbursed.

      State Withheld Portion of Local Units’ Funding Without
      Required Memorandums of Understanding

      During FYs 2005 through 2007, the State of Missouri
      Administrative Agency withheld a total of $3,628,080 in State
      Homeland Security Program grant funds from local units without
      the required written memorandums of understanding. Program
      Guidelines required the states to provide at least 80% of the total
      grant program amount to local units of governments. The State of
      Missouri, however, withheld grant funds each year from the initial
      80% allotted to the local jurisdictions in order to centrally provide
      training and exercises for the local units of government, without
      proper supporting documentation. Without written memorandums
      of understanding, we cannot determine whether local units of
      government gave authorization to the State to spend a certain
      portion of their grants funds on training and exercises.
      Additionally, we cannot determine whether the intent of Congress
      to put control of funds with the local governments was satisfied.




     Annual Report to Congress of States’ and Urban Areas’
Management of Homeland Security Grant Programs Fiscal Year 2010

                           Page 10
              Grants Funds Were Not Obligated Timely

              For FYs 2005 through 2007, the West Virginia State
              Administrative Agency did not obligate grant funds to subgrantees
              within 60 days of receipt from FEMA, as required. The average
              number of days to obligate grant funds ranges from 385 days to
              692 days. Due to delays in allocating funds it was necessary for
              the State to request two extensions to grant performance periods
              for FY 2005 and one extension for FY 2006. While FEMA
              officials stated that the State had made good faith efforts during
              FYs 2005 to 2007 to obligate funds in a timelier manner, they
              recognized that there was room for continued improvement.

              Detailed Equipment List Was Not Maintained

              Neither the State of West Virginia, nor its subgrantees, maintained
              a detailed equipment list that provided a full description of all
              assets purchased with grant funds. Although accounting records
              provided the details of the asset purchases, as reported in each
              reimbursement request package, these details did not include all
              the information required by FEMA guidance and regulations and
              the West Virginia Homeland Security Program Sub-Grant
              Administrative Manual. The State only maintained a list of
              subgrantee programs and the related funding allocations. Without
              a readily available, detailed equipment list for each subgrantee, the
              State Administrative Agency cannot effectively account for
              equipment state-wide to ensure that the State is prepared to handle
              a major catastrophe. Further, without such information, the State
              Administrative Agency may not be able to determine whether
              equipment purchases are duplicative or help meet program goals.
              The State had subsequently taken action to adequately address the
              issue.

Best Practices
      During the course of these performance audits, a potentially effective tool and
      practice was identified for possible use by, and sharing with, other states and
      jurisdictions. We believe the Federal Emergency Management Agency
      should consider evaluating its potential benefits to help improve grant
      management and preparedness.

              Electronic Grants Management System May be a Best Practice

              The Missouri State Administrative Agency implemented a grants
              management tool known as the Electronic Grants Management

             Annual Report to Congress of States’ and Urban Areas’
        Management of Homeland Security Grant Programs Fiscal Year 2010

                                   Page 11
      System (the System) in 2005. The System has helped the State of
      Missouri overcome challenges in its critical mission to enhance
      preparedness and response capabilities. The System efficiently
      tracks and accounts for grant funds, links funds distribution to
      strategic goals and objectives, and accounts for equipment in
      accordance with applicable Federal Acquisition Regulations.
      Additionally, the System allows the State to integrate
      administration of Homeland Security Grant Programs with existing
      information systems enabling critical resource data sharing.

      Users of the Electronic Grants Management System can:

      �	 Track and display distribution of equipment, training, and other
         resources;
      �	 Develop resource usage and sharing plans across jurisdictions;
      �	 Display equipment and training provided in each jurisdiction;
      �	 Estimate and assess equipment maintenance needs statewide;
      �	 Audit selected jurisdictions based on the State Homeland
         Security Program and Urban Areas Security Initiative grants
         disbursements and reimbursements data; and
      �	 Prepare planning budgets.

      In summary, the System provides a comprehensive tool that
      removes traditional barriers to effective grants management and
      can be customized to the users’ specifications.




     Annual Report to Congress of States’ and Urban Areas’ 

Management of Homeland Security Grant Programs Fiscal Year 2010
 


                            Page 12 

Appendix A
Purpose, Scope, and Methodology

                    The purpose of this report, prepared in accordance with Public
                    Law 110-53, Implementing Recommendations of the 9/11
                    Commission Act of 2007, was to assess and summarize the audit
                    reports completed during FY 2010 on State Homeland Security
                    Program grants and Urban Areas Security Initiative grants awarded
                    to states, territories, and the District of Columbia. Specifically, we
                    were to determine (1) the number of audits conducted and
                    completed; (2) whether findings are applicable to the mandate;
                    (3) whether the funds awarded were used in accordance with the
                    law, program guidance, and State homeland security plans and
                    other applicable plans; and (4) the extent to which funds awarded
                    enhanced the ability of a grantee to prevent, prepare for, protect
                    against, and respond to natural disasters, acts of terrorism and other
                    man-made disasters.

                    The audit reports included in this annual consolidated report to
                    Congress were the result of four audits conducted by independent
                    public accounting firms under contract to the Office of Inspector
                    General. A citation and an internet link to each report are included
                    in Appendix B.

                    The individual audits summarized in this report were conducted in
                    accordance with the Government Auditing Standards as prescribed
                    by the Comptroller General of the United States. No additional
                    audit work was performed in preparing this report.




                   Annual Report to Congress of States’ and Urban Areas’ 

              Management of Homeland Security Grant Programs Fiscal Year 2010
 


                                          Page 13 

Appendix B
Audit Reports Included in this Report


                                            Report            Date
Report                                                                 Internet Link
                                            Number           Issued

The State of West Virginia’s
Management of State Homeland Security                                  http://www.dhs.gov/xoig/assets/
                                           OIG-10-20        11/20/09
Grants Awarded During Fiscal Years                                     mgmtrpts/OIG_10-20_Nov09.pdf
2005 through 2007

The State of South Carolina’s
Management of State Homeland Security
                                                                       http://www.dhs.gov/xoig/assets/
Program and Urban Areas Security           OIG-10-29        12/11/09
                                                                       mgmtrpts/OIG_10-29_Dec09.pdf
Initiatives Grants Awarded During Fiscal
Years 2005 through 2007
The State of Missouri’s Management of
State Homeland Security Program and
                                                                       http://www.dhs.gov/xoig/assets/
Urban Areas Security Initiatives Grants    OIG-10-33        01/06/10
                                                                       mgmtrpts/OIG_10-33_Jan10.pdf
Awarded During Fiscal Years 2005
through 2007

The State of Maryland’s Management of
State Homeland Security Grants                                         http://www.dhs.gov/xoig/assets/
                                           OIG-10-116       09/10/10
Awarded During Fiscal Years 2005                                       mgmtrpts/OIG_10-116_Sep10.pdf
through 2007




                        Annual Report to Congress of States’ and Urban Areas’ 

                   Management of Homeland Security Grant Programs Fiscal Year 2010
 


                                               Page 14
 

Appendix C
Scope of State Grant Program Management Audits


                    The purpose of each individual state audit was to determine
                    whether the state distributed and spent State Homeland Security
                    Program and Urban Areas Security Initiative grant funds
                    strategically, effectively, and in compliance with laws, regulations,
                    and guidance. The goal of the audit was to identify problems and
                    solutions that can help the state better prepare for and respond to
                    threats and acts of terrorism. The audit further enabled us to
                    answer the following nine researchable questions:

                        �   Were measurable goals developed from plans?

                        �   Do funded plans link all hazards capabilities to goals?

                        �   Were funds and resources distributed based on goals?

                        �   Does the State accurately measure risk?

                        �   Does the State measure response capability?

                        �   Can the State demonstrate improved performance?

                        �   Were grants administered compliantly?

                        �   Did the State monitor grant programs?

                        �   What innovative practices can be used by other states?

                    The scope of the audit included the State Homeland Security
                    Program and Urban Areas Security Initiative grants, where
                    applicable, for Fiscal Years 2005, 2006, and 2007.




                   Annual Report to Congress of States’ and Urban Areas’ 

              Management of Homeland Security Grant Programs Fiscal Year 2010
 


                                          Page 15 

Appendix D
Report Distribution


                      Department of Homeland Security
                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Federal Emergency Management Agency

                      Administrator
                      Assistant Administrator, Grant Programs Directorate
                      Federal Emergency Management Agency Audit Liaison
                      Grant Programs Directorate Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                    Annual Report to Congress of States’ and Urban Areas’
               Management of Homeland Security Grant Programs Fiscal Year 2010
 


                                           Page 16
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
